 COMPILATION OF THE FY 1999 FINANCIAL STATEMENTS FOR
    AIR FORCE AND OTHER DEFENSE ORGANIZATIONS
               WORKING CAPITAL FUNDS

Report No. D-2000-166                          July 21, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officer
DFAS                  Defense Finance and Accounting Service
DSS                   Defense Security Service
JLSC                  Joint Logistics Systems Center
ODO                   Other Defense Organizations
OMB                   Office of Management and Budget
USGSGL                U.S. Government Standard General Ledger
USTRANSCOM            United States Transportation Command
WCF                   Working Capital Fund
                       Office of the Inspector General, DoD
Report No. D-2000-166                                                   July 21, 2000
  (Project No. D2000FD-0050.001)
  (formerly Project No. 0FD-2112)

           Compilation of the FY 1999 Financial Statements for
              Air Force and Other Defense Organizations
                         Working Capital Funds

                                    Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires the DoD to submit to the Office
of Management and Budget annual financial statements that have been audited by the
Inspector General, DoD. This is the second of two reports on the Air Force Working
Capital Fund financial statements. The first report was Inspector General Report
No. D-2000-083, “Inspector General, DoD, Oversight of the Air Force Audit Agency
Audit of the FY 1999 Air Force Working Capital Fund Financial Statements,”
February 14, 2000.

Objectives. The objective of the audit was to determine whether the Defense Finance
and Accounting Service Denver Center consistently and accurately compiled data from
field activities and other sources for the FY 1999 Air Force Working Capital Fund
financial statements. Specifically, we reviewed the Defense Finance and Accounting
Service Denver Center’s monthly and year-end accounting entries to the accounting
records; preparation of the Reports on Budget Execution for the Air Force Working
Capital Fund and the U.S. Transportation Command; and differences in disbursements
and collections between the Air Force Working Capital Fund base-level accounting
records and Department-level records. See Appendix A for a discussion of the audit
scope and methodology and our review of the management control program and for
Internet addresses of prior audits in this area.

Results. The Defense Finance and Accounting Service Denver Center made
$79.1 billion of unsupported accounting entries to the Air Force Working Capital Fund
accounting records and $38.9 billion of unsupported accounting entries to Other
Defense Organizations Working Capital Fund accounting records. The accounting
records were used to prepare the FY 1999 financial statements for the Air Force and
Other Defense Organizations. The Defense Finance and Accounting Service Denver
Center also made $10.8 billion of unsupported accounting entries for Air Force
inventory revaluation and related reversals. This condition represents a material
management control weakness that affects the accuracy of the accounting records and
the financial statements (finding A).

The FY 1999 Statements of Budgetary Resources prepared by the Defense Finance and
Accounting Service Denver Center for the Air Force Working Capital Fund and the
U.S. Transportation Command were not auditable, and procedures for their preparation
contained internal control deficiencies. As a result, management or other users should
not rely on those Statements of Budgetary Resources (finding B).

The Defense Finance and Accounting Service Denver Center could not fully explain
differences in disbursements and collections in Air Force base-level accounting records
and Department-level records. As a result, there was no assurance that disbursements
and collections in Department-level records represented proper charges to the Air Force
Working Capital Fund, or whether disbursements and collections were properly
recorded in the base-level accounting records (finding C).

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Denver Center, fully implement existing guidance for
accounting entries by providing adequate supporting documentation, researching and
reconciling differences between different sources of information, and obtaining
approval at the appropriate level. We also recommend that the Director, Defense
Finance and Accounting Service Denver Center, prepare financial statements from
accounting records and post all accounting entries to accounting records.

We are not making recommendations to implement the U.S. Government Standard
General Ledger and to determine causes of differences in disbursements and collections
between Air Force base-level and Department-level accounting records because of
ongoing and planned management actions.

Management Comments. The Director for Accounting, Defense Finance and
Accounting Service, nonconcurred with the conclusions that management controls at the
Defense Finance and Accounting Service Denver Center were not adequate to ensure
that all accounting entries were adequately supported and properly approved and that a
material management control weakness existed. The Director either concurred with or
concurred in principle with each of the recommendations. However, the Director
disagreed that accounting entries were not supported or were not properly approved.
See findings A and B for a complete discussion of management comments and the
Management Comments section for the complete text of management comments.

Audit Response. The management comments are not fully responsive. Although the
Director concurred in principle to two recommendations, he did not provide details on
corrective actions. Further, the unsupported accounting entries we observed did not
meet DoD or Federal accounting standards. We request that the Director provide
additional comments by September 19, 2000, stating the planned actions for ensuring
that all accounting entries are correct, proper, and fully supported.




                                          ii
Table of Contents

Executive Summary                              i

Introduction
     Background                                1
     Objectives                                1

Findings
     A. Unsupported Accounting Entries         3
     B. Statement of Budgetary Resources      11
     C. Disbursements and Collections         17

Appendixes
     A. Audit Process
         Scope                                20
         Methodology                          21
         Management Control Program           21
         Prior Coverage                       22
     B. Report Distribution                   23

Management Comments
     Defense Finance and Accounting Service   25
Background
     Public Law 101-576, the “Chief Financial Officers (CFO) Act of 1990,”
     November 15, 1990, as amended by Public Law 103-356, the “Federal
     Financial Management Act of 1994,” October 13, 1994, requires DoD to submit
     to the Office of Management and Budget (OMB) annual financial statements that
     have been audited by the Inspector General, DoD. This is the second of two
     reports on the audit of the FY 1999 Air Force Working Capital Fund (WCF)
     financial statements. The first report was Inspector General Report
     No. D-2000-083, “Inspector General, DoD, Oversight of the Air Force Audit
     Agency Audit of the FY 1999 Air Force Working Capital Fund Financial
     Statements,” February 14, 2000.

     The FY 1999 Air Force WCF financial statements included four business
     activity groups with total assets of $23.1 billion and a total net position
     (Air Force equity) of $19.3 billion. The U.S. Transportation Command
     (USTRANSCOM) had total assets of $2.4 billion and a total net position of
     $1.2 billion; the Defense Security Service (DSS) had total assets of $6.5 million
     and a total net position of a negative $34.6 million; and the Joint Logistics
     Systems Center (JLSC) had total assets of $61.5 million and a total net position
     of $20.1 million.

     The Defense Finance and Accounting Service (DFAS) Denver Center, Denver,
     Colorado, performs the Department-level accounting function for the Air Force
     WCF, USTRANSCOM, DSS, and JLSC. JLSC operations were closed on
     September 30, 1998, and the accounting function was limited to the closing of
     residual account balances. The DFAS Denver Center prepared the FY 1999
     financial statements for the Air Force Working Capital Fund. The DFAS
     Denver Center also prepared the FY 1999 financial statements for
     USTRANSCOM, DSS, and JLSC, which were included in the FY 1999 Other
     Defense Organizations (ODO) WCF financial statements prepared by the DFAS
     Indianapolis Center, Indianapolis, Indiana. For cash management purposes, the
     Air Force WCF includes USTRANSCOM.

     Most of the accounting entries made affect the account balances reported in the
     annual financial statements. Monthly entries to revalue Air Force inventory,
     however, do not affect the annual financial statements, although they affect
     monthly statements. These entries are made to restate inventory at approximate
     historical cost and are reversed at the beginning of the following month. Only
     the revaluation entries made for the last month of each fiscal year affect the
     annual financial statements.

Objectives
     The objective of the audit was to determine whether the DFAS Denver Center
     consistently and accurately compiled data from field activities and other sources
     for the FY 1999 Air Force WCF financial statements. Specifically, we
     reviewed the DFAS Denver Center’s monthly and year-end accounting entries to
     the accounting records for the Air Force, USTRANSCOM, DSS, and JLSC
     working capital funds; preparation of the Air Force WCF and USTRANSCOM


                                         1
Reports on Budget Execution, which contain information that was used for the
Statements of Budgetary Resources; and differences in disbursements and
collections recorded in Air Force WCF base-level accounting records and those
recorded in Department-level records. In addition, we assessed management
controls and compliance with laws and regulations applicable to the overall audit
objective. See Appendix A for a discussion of the audit scope and methodology
and our review of the management control program and for Internet addresses of
prior audits in this area.




                                    2
           A. Unsupported Accounting Entries
           The DFAS Denver Center made $79.1 billion of unsupported accounting
           entries to Air Force WCF accounting records and $38.9 billion of
           unsupported accounting entries to ODO WCF accounting records. The
           accounting records were used to prepare the FY 1999 financial
           statements for the Air Force and ODO. The DFAS Denver Center also
           made $10.8 billion of unsupported accounting entries for Air Force
           inventory revaluation and related reversals. In addition, of the
           $413.4 billion of accounting entries we reviewed, $24.6 billion were not
           properly approved. These conditions occurred because:

               •    supporting documentation for the accounting entries was missing,
                    incomplete, or did not support the amounts of the accounting
                    entries,

               •    accounting entries were unsupported because they were not
                    researched for validity or cause,

               •    accounting entries for some budgetary accounts were unsupported
                    because information was not available,

               •    accounting entries violated regulations or generally accepted
                    accounting principles, and

               •    year-end closing accounting entries were divided to circumvent
                    established approval thresholds.

           As a result, the material management control weaknesses affect the
           accuracy of the accounting records and the financial statements.

Guidance
    DoD. DoD Regulation 7000.14-R, the “DoD Financial Management
    Regulation,” volume 6A, “Reporting Policy and Procedures,” February 1996,
    with changes through January 1998, provides guidance on the roles and
    responsibilities of DFAS and its customers regarding financial reports and the
    treatment of transactions from which the financial data included in the reports
    are derived. This guidance requires DFAS to adequately support, and justify in
    writing, any adjustments to official accounting records and states that:
           The documentation shall include the rationale and justification for the
           adjustment, the detail numbers and dollar amounts of errors or conditions
           that are related to the transactions or records that are proposed for
           adjustment, the date of the adjustment, and the name and position of the
           individual approving the adjustment. The documentation also shall be
           sufficient to provide an audit trail to the detail transaction(s) being adjusted
           or corrected.




                                               3
    DFAS. DFAS Director for Accounting Memorandum, “Journal Voucher
    Guidance,” October 28, 1999, provides additional guidance for journal vouchers
    (accounting entries). This guidance states that:

           •   accounting entries must be adequately documented to support the
               validity and the amount of the transaction.

           •   for accounting entries that correct errors or are the result of a
               disagreement between two or more sources, the documentation must
               include a determination why there was a discrepancy and how it was
               determined that the entries were correct.

    This guidance also provides for the following dollar thresholds for approval of
    all accounting entries:

           •   Entries under $100 million may be approved by team leaders of the
               WCF Reporting Branch.

           •   Entries from $100 million to $500 million must be approved by the
               Deputy Director for Departmental Accounting.

           •   Entries from $500 million to $1 billion must be approved by the
               Director for Accounting.

           •   Entries over $1 billion must be approved by the Director, DFAS
               Denver Center.

    DFAS Denver Center. For FY 1999, the team leader of the Working Capital
    Funds Branch, Accounting and Reports Division, DFAS Denver Center, had
    established approval thresholds for monthly accounting entries that were similar
    to the thresholds in the memorandum on journal voucher guidance from the
    Director for Accounting, DFAS.

Accounting Entries
    During FY 1999, the DFAS Denver Center made 570 entries with total debits of
    $180.8 billion to records of the Air Force WCF and 200 entries with total debits
    of $109.3 billion to the records of the ODO WCF. In addition, the DFAS
    Denver Center made 278 monthly inventory revaluation entries and related
    reversals with total debits of $139.2 billion to the records of the Air Force
    WCF.




                                        4
    Table 1 shows the monthly entries and year-end entries as they related to
    accounting records of the Air Force and ODO WCFs.



                 Table 1. DFAS Denver Center Accounting Entries
                                  (in billions)

    Activity                         Accounting Entries           Debit Amount

    Air Force:

      Monthly Entries                        325                       $ 41.8

      Inventory Revaluation/Reversal         278                        139.2

      Year-end Entries                       245                        139.0

    ODO:

      Monthly Entries                        113                         23.1

      Year-end Entries                        87                         86.2

     Total                                  1,048                     $429.3



Review of Accounting Entries
    To determine whether documentation contained adequate support and proper
    approval, we reviewed 1,012 accounting entries with debits totaling
    $413.4 billion. This review included all 716 monthly entries and 296 of the 332
    year-end entries. We did not review 32 year-end entries for the Air Force with
    total debits of $11 billion and 4 year-end entries for ODO with total debits of
    $4.7 billion, because the DFAS Denver Center did not make them available for
    review by our deadline for completing audit field work. The lack of review of
    those 36 entries did not affect the results of our audit. The review showed that
    not all accounting entries were adequately supported or properly approved.




                                        5
Unsupported Entries. The DFAS Denver Center did not support 245 entries
for the Air Force with total debits of $79.1 billion and 119 entries for ODO
with total debits of $38.9 billion. In addition, 92 entries for Air Force
inventory revaluation and related reversals with total debits of $10.8 billion
were not supported. Table 2 shows the unsupported accounting entries by
condition and category.



                  Table 2. Unsupported Accounting Entries
                               (in millions)

                         Monthly Entries                Year-End Entries

                                        Debit                          Debit
Reason Unsupported      Number         Amount          Number          Amount

Missing documentation     27       $       798.7          3             $ 41.0

Incomplete
documentation             182       12,850.8             23           12,635.9

Documentation did not
support entry             55           7,101.9            6             3,998.2

Entry violated
accounting principles      8           5,938.4            3               174.6

Cause of entry not
researched                 0                 0           99           33,328.7

Entry to input
budgetary data             0                 0            50          51,924.4
 Total                    272     $26,689.8              184        $102,102.8




       Missing Documentation. Supporting documentation was missing from
27 monthly entries with debits totaling $798.7 million and 3 year-end entries
with debits totaling $41 million.

        Incomplete Documentation. Supporting documentation was incomplete
and did not fully support all dollar amounts on 182 monthly entries with debits
totaling $12.9 billion and 23 year-end entries with debits totaling $12.6 billion.
Of the 182 monthly entries, 11 entries with debits totaling $477.4 million were
recorded as part of compound-purpose entries that were assigned to multiple
categories of either supported or unsupported entries.

       Documentation Did Not Support the Entry. Supporting documentation
was present but did not support 55 monthly entries with debits totaling
$7.1 billion and 6 year-end entries with debits totaling $4 billion. Of the


                                       6
55 monthly entries, 31 entries with debits totaling $5.6 billion were recorded as
part of compound-purpose entries that were assigned to multiple categories of
either supported or unsupported entries.

        Entry Violated Accounting Principles. The supporting documentation
was present and supported the amount of the entry, but the entry violated
regulations or generally accepted accounting principles. This condition
occurred on 8 monthly entries with debits totaling $5.9 billion and 3 year-end
entries with debits totaling $174.6 million. An example of this condition was
the USTRANSCOM monthly entry 99-03-12. This entry decreased accounts
receivable by $57.2 million, decreased accounts payable by $56 million, and
decreased equity by $1.2 million, based on data in SF 133, Reports on Budget
Execution. The Report on Budget Execution is an end product of accounting
records and should not be a source of accounting entries.

        Cause of Entry Not Researched. The supporting documentation was
present and stated that the purpose of the entry was to make the FY 1999
financial statement agree with the WCF Accounting Report (AR-1307).
However, the documentation did not explain the cause of the difference between
the reports or mention research that would prevent the recurrence of this
condition in future years. This condition occurred on 99 year-end entries with
debits totaling $33.3 billion.

         Entry to Enter Budgetary Data. Entries were made to populate
budgetary accounts from data in the Reports on Budget Execution. The
budgetary accounts should have been populated at the transaction level.
However, as discussed in finding B, current accounting systems for the
Air Force and USTRANSCOM working capital funds had not fully implemented
budgetary accounting and were being replaced or upgraded. The accounting
systems for JLSC and DSS also had not fully implemented budgetary accounting
at the transaction level, and these systems were also being upgraded. Because
of the lack of budgetary accounting data, the DFAS Denver Center had to use
the Reports on Budget Execution to populate the budgetary accounts for use in
preparing the financial statements. This condition occurred on 50 year-end
entries with debits totaling $51.9 billion.

Proper Level of Approval. The DFAS Denver Center did not obtain the
proper level of supervisory approval for 26 monthly and year-end entries
totaling $24.6 billion. This occurred primarily on USTRANSCOM year-end
closing entries with posted debits totaling $4.9 billion. What should have been
5 USTRANSCOM year-end closing entries were divided into 17 entries. Of the
five entries, three should have been approved by the Director, DFAS Denver
Center; one of the entries should have been approved by the Director of
Accounting, DFAS Denver Center; and the remaining entry should have been
approved by the Deputy Director of Departmental Accounting, DFAS Denver
Center. Consequently, the 17 entries were approved at a level below that
required for the 5 entries. The 17 entries included 3 entries posting net amounts
of $232.6 million to summary accounts for the closing of posting accounts with
balances of $17.1 billion, and separate entries for closing balances in collection,
disbursement, revenue, and expense accounts.




                                     7
Prior Audit Reports
    Inspector General, DoD, Report No. 98-050, “Defense Business Operations
    Fund Adjustments at the Defense Finance and Accounting Service Denver
    Center,” January 20, 1998, reported that to prepare the FY 1996 Air Force,
    USTRANSCOM and JLSC working capital fund financial statements, the DFAS
    Denver Center made 111 year-end accounting entries valued at $217.5 billion
    that lacked supporting documentation.

Summary
    The DFAS Denver Center made $128.8 billion of unsupported monthly and
    year-end accounting entries into official accounting records. Conditions that
    caused $76.9 billion of the unsupported accounting entries can be corrected by
    implementing guidance in DoD Regulation 7000.14-R or issued by the Director
    of Accounting, DFAS. Conditions that caused $51.9 billion of unsupported
    entries require implementation of the USGSGL at the transaction level for
    budgetary accounts for Air Force, USTRANSCOM, DSS, and JLSC working
    capital fund accounting systems. Plans exist to upgrade or replace the
    accounting systems to incorporate the USGSGL at the transaction level for
    budgetary accounts. Therefore, we are making no recommendation to
    implement the USGSGL in accounting systems at the transaction level for
    budgetary accounts. The conditions observed during this audit represent a
    significant improvement over the lack of supporting documentation noted during
    our audit of the FY 1996 financial statements (Inspector General, DoD, Report
    No. 98-050).

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Director, Defense Finance and Accounting
    Service Denver Center, fully implement applicable provisions of DoD
    Regulation 7000.14-R, the “DoD Financial Management Regulation,”
    volume 6A, “Reporting Policy and Procedures,” February 1996, with
    changes through January 1998, and Defense Finance and Accounting
    Service Director for Accounting Memorandum, “Journal Voucher
    Guidance,” October 28, 1999, by:

           1. Providing adequate supporting documentation for all monthly and
    year-end accounting entries.

    DFAS Comments. DFAS concurred in principle with the recommendation, and
    stated:
           ...we believe the accounting entries cited by the auditors were adequately
           supported by the means of attached documents or where attached
           documentation was not practical, by referencing the location of the
           documentation. The DFAS believed, and the auditors later agreed, that
           referencing a central location of documentation is an acceptable method of



                                             8
       supporting journal vouchers when attaching documentation is not practical.
       The auditors did not inform DFAS-DE personnel of any issue they
       encountered with the journal vouchers until after the audit was completed
       and the results were reported to DoDIG headquarters. The DFAS will
       continue to emphasize the need for proper journal voucher preparation,
       including providing adequate supporting documentation.

Audit Response. The DFAS comments are not responsive. The unsupported
accounting entries we observed did not meet DoD or Federal accounting
standards. For example, $33.3 billion of the $102.1 billion year-end entries
were forced entries. A forced entry is an entry to make one set of records equal
the balance in another set of records without determining what caused the
difference or which set of records was correct. Proper accounting procedure
requires that research be performed to determine the causes of the differences
and to correct those causes. Instead, DFAS personnel simply made accounting
entries to add or subtract amounts totaling $33.3 billion of differences from one
set of records without any knowledge of the causes of the differences or which
set of records was correct. The practice of making forced entries overlooks the
underlying accounting deficiencies causing the mismatches, and it prevents
detection and correction of those deficiencies. Another example is the $51.9
billion of budgetary entries. Accounting entries were made to populate the
budgetary accounts, because accounting systems did not provide budgetary
accounting data. The amounts of those entries came from the Reports on
Budgetary Execution, which inadequately attempted to determine budgetary
amounts in the absence of budgetary data from transactions as discussed in
finding B. The amounts of those budgetary entries could not be confirmed
because audit trails to the budgetary transactions were nonexistent.

The DFAS statement that the auditors did not inform DFAS Denver Center
personnel of any issue is incorrect. During the audit we repeatedly discussed
the lack of support for accounting entries with numerous DFAS Denver Center
operating accountants and team leaders of the Working Capital Funds and CFO
Processing and Reporting Branches. While we agreed with DFAS officials that
lengthy documentation may be referenced, this was not done for the entries we
cited. Of much greater importance, however, is the condition that DFAS
officials have not accepted responsibility for making correct, proper, and
supported accounting entries. Based on preliminary results of our FY 2000
work, the problem persists. Until DFAS ensures that all accounting entries are
correct, in accordance with Federal accounting standards, and fully supported,
neither we nor other auditors will be able to express opinions on the financial
statements. We request that DFAS reconsider its position on the
recommendation and provide additional comments on the final report.

       2. Researching and reconciling differences between two accounting
data sources and documenting the reasons for the discrepancies.

DFAS Comments. DFAS concurred and stated that the DFAS Denver Center
will research and reconcile differences between accounting data from sources
used to prepare financial statements.




                                         9
       3. Obtaining the appropriate level of approval for all accounting
entries.

DFAS Comments. DFAS concurred in principle, and stated:
       The journal voucher approval process already existed and was followed by
       DFAS-DE personnel. The reported instances of splitting journal voucher
       entries to circumvent the approval process did not occur.            The
       documentation the auditors believed were journal vouchers, in these
       instances, were notes of the accountant. No journal voucher was entered
       into the accounting system based on those notes. Nevertheless, for fiscal
       year 2000 reporting, the reporting team leader will conduct a journal
       voucher review prior to releasing each draft of the final financial
       statements.

Audit Response. The DFAS Comments are not responsive. During October
1999, a DFAS Denver Center operating accountant contacted us and requested
that we agree to her proposed plan to split 5 accounting entries so that approval
by the Director, DFAS Denver Center, would not be required. The accountant
stated that her supervisor was reluctant to request the Director to approve the
entries. We informed the accountant that we could not agree with that proposal
and recommended that the entries be submitted to the Director for approval.
Subsequently, we learned that the 5 entries were split into a total of 17 entries.
Each of those entries contained journal voucher numbers and were recorded in
the journal voucher log. The 17 entries were approved by officials at levels
below the Director. We request that DFAS reconsider its position on the
recommendation and provide additional comments on the final report.




                                       10
           B. Statement of Budgetary Resources
           The FY 1999 Air Force and USTRANSCOM working capital fund
           Statements of Budgetary Resources (the Statements) prepared by the
           DFAS Denver Center were not auditable, and procedures for their
           preparation contained internal control deficiencies. These conditions
           were caused by:

                  •   not implementing the USGSGL for budgetary accounts,

                  •   not posting accounting entries to the accounting records, and

                  •   making errors in preparing the statements.

           As a result, the Statements should not be relied on by management or
           other users.

Budgetary Resources
    The Statements and related disclosures provide information about how
    budgetary resources are made available, as well as the status of budgetary
    resources at the end of the period. The Statements are divided into three
    sections: Budgetary Resources, Status of Budgetary Resources, and Outlays.
    Budgetary resources consist of new budget authority, beginning and transferred
    unobligated balances, spending authority from offsetting collections, and
    adjustments. Budgetary resources are used to incur financial obligations that
    will result in outlays and expenditures.

Guidance
    DoD. DoD Regulation 7000.14-R, volume 6B, “Form and Content of DoD
    Audited Financial Statements,” October 1999, provides instructions for
    preparation of the Statements. The Statements illustrate in condensed form the
    information that OMB Circular No. A-34, “Instructions on Budget Execution,”
    October 1999, requires to be reported on SF 133, the Report on Budget
    Execution. The regulation also provides crosswalks from 92 USGSGL
    budgetary accounts to specific lines of the Statements and from specific lines of
    the Statements to specific lines of the Report on Budget Execution.

    DoD Regulation, 7000.14-R, volume 6A, “Reporting Policy and Procedures,”
    requires DFAS to establish procedures to ensure that financial reports are
    prepared and verified to the official accounting records. This regulation also
    requires all accounting adjustments to be posted to the official accounting
    records.

    Treasury. Treasury Financial Manual, Transmittal Letter No. S2 99-01,
    Volume 1, “U.S. Government Standard General Ledger,” June 3, 1999,
    provides guidance on the USGSGL that includes the chart of accounts, account
    descriptions, sample accounting transactions, attributes of the accounts, and
    crosswalks to standard external reports, including a crosswalk of budgetary


                                        11
    accounts to specific lines of the Report on Budget Execution. The crosswalk to
    the Report on Budget Execution uses the same 92 budgetary accounts used in
    DoD Regulation 7000.14-R to crosswalk to the Statements.

Statement Preparation
    The DFAS Denver Center prepared a preliminary Air Force WCF Statement
    based on a combining Air Force WCF Report on Budget Execution,
    September 30, 1999. The combining Air Force WCF Report on Budget
    Execution included all Air Force WCF business activity groups and the
    USTRANSCOM activity group. The final Air Force WCF Statement did not
    include USTRANSCOM budgetary resources, their status, and outlays. The
    USTRANSCOM amounts were included in the FY 1999 Other Defense
    Organizations WCF Statement prepared by the DFAS Indianapolis Center, in
    accordance with DoD Regulation 7000.14-R. Table 3 shows budgetary
    resources from the final FY 1999 Air Force WCF Statement and the
    USTRANSCOM Statement.



                            Table 3. Budgetary Resources
                                     (in millions)

                                                         Statements of
           Activity Group                             Budgetary Resources

          Supply Management                                   $10,015.5

          Depot Maintenance                                      4,694.0

          USTRANSCOM                                             4,341.1

          Information Services                                     694.2

          Transportation                                           156.9

            Total                                             $19,901.7



Accounts Used
    Our review of the preparation of the FY 1999 Air Force WCF and
    USTRANSCOM Statements was limited to the preparation of the Reports on
    Budget Execution for the Supply Management, Depot Maintenance, and
    USTRANSCOM activity groups. The Reports on Budget Execution were not
    prepared from the 92 USGSGL budgetary accounts listed in DoD
    Regulation 7000.14-R. To prepare the Reports on Budget Execution, the DFAS
    Denver Center used 1 budgetary account, 20 proprietary accounts,
    and 7 statistical accounts for Supply Management; no budgetary accounts,
    35 proprietary accounts, and 53 statistical accounts for Depot Maintenance;


                                      12
           and 5 budgetary accounts, 29 proprietary accounts, no statistical accounts, and
           $45.5 million of budgetary resources not recorded in accounting records for
           USTRANSCOM.1 This condition occurred because, with minor exceptions, the
           Air Force WCF and USTRANSCOM components had not implemented the
           USGSGL at the transaction level for budgetary accounts, as required by Public
           Law 104-208, the “Federal Financial Management Improvement Act of 1996,”
           September 30, 1996. Because budgetary accounts were not used, we could not
           determine the accuracy or fairness of presentation of the Reports on Budget
           Execution. Consequently, those reports, and the Statements prepared based on
           those reports, were unauditable.

Accounting Systems
           All accounting systems used by the Air Force WCF and USTRANSCOM were
           either migratory or legacy systems that did not fully implement the USGSGL at
           the transaction level for budgetary accounts. DFAS Denver Center personnel
           stated that all accounting systems were to be upgraded or replaced between
           FY 2001 and FY 2003, and that the upgraded and replacement systems would
           incorporate the USGSGL at the transaction level for budgetary accounts.

Unsupported Accounting Entries and Errors
           OMB Circular No. A-34 states that the Report on Budget Execution fulfills the
           requirement in title 31, United States Code, sections 1511 through 1514,
           (31 U.S.C. 1511-1514) that the President review Federal expenditures at least
           four times a year. Therefore, we reviewed the preparation of the Reports on
           Budget Execution for the Supply Management, Depot Maintenance, and
           USTRANSCOM activity groups. The preparation procedures for the Reports
           on Budget Execution included internal control deficiencies that resulted in
           unsupported accounting entries and preparation errors.

           Unsupported Accounting Entries. DFAS Denver Center made unsupported
           accounting entries to the data obtained from accounting records to prepare the
           Reports on Budget Execution for the Supply Management, Depot Maintenance
           and USTRANSCOM activity groups. These entries were often made to correct
           what DFAS Denver Center accountants considered errors in accounting records;
           to make the report agree with accounting proofs2 in accounting systems at base
           level, DFAS Denver Center level, or DFAS Indianapolis Center level; or to
           agree with data considered more accurate than accounting records.

1
    Budgetary accounts are used to record budgetary resources and their status. Proprietary accounts are
    used to record assets, liabilities, capital (net position), income, expense, and inter/intra-office transfer
    accounts. Statistical accounts are used to record data for management control and reporting. Each set of
    accounts is self-balancing (debits equal credits).


2
    Accounting proofs provide proof of account relationships. These relationships are included in
    accounting systems to provide a common-sense test of the reasonableness of the trial balance. For
    example, the proof for accounts receivable includes those accounts affected by a sale transaction and a
    collection of sale transaction.



                                                       13
These entries were unsupported because they were not researched for cause and
accuracy and were not recorded in the accounting records. See finding A for a
complete discussion of unsupported accounting entries. Table 4 shows that
these unsupported accounting entries amounted to an absolute value of
$75.5 million.



        Table 4. Unsupported Entries to the Report on Budget Execution
                                (in millions)1
                                                    Supply        Depot
 Report Line                                      Management    Maintenance USTRANSCOM

 Part 1
 Budgetary Resources

 Line 2B. Unobligated balance/Net
   transfers of prior year balance, actual          $ 0.5            0               0

 Line 3A2. Spending authority from offsetting
   collections/Earned/Receivables from
   Federal sources                                    0            ($2.4)            0

 Line 6D. Permanently not available/
   other authority withdrawn2                         0              0             $ 2.6
                                                                                   (20.6)

 Part 2
 Status of Budgetary Resources

 Line 8D. Obligations incurred/
   reimbursable obligations                         (30.4)           0               0

 Part 3
 Relationship of obligations to outlays:

 Line 13. Obligated balance transferred, net                                         4.4

 Line 14A. Obligated balances, net,
   end of period/Accounts receivable                 (1.5)           0               0

 Line 14D. Obligated balances, net,
   end of period/Undelivered Orders                 (11.6)           0               0

 Line 15B. Outlays/Collections                        0             (1.5)            0

 1
  Positive amounts represent unsupported increases to line totals and negative amounts represent
 unsupported decreases to line totals.

2
    USTRANSCOM components had both unsupported increases and decreases to totals in line 6D.




                                             14
   Preparation Errors. The DFAS Denver Center maintains the trial balance
   report for the Depot Maintenance activity group on a personal computer
   spreadsheet. The spreadsheet is also used to prepare the Depot Maintenance
   activity group’s Report on Budget Execution. Our review identified spreadsheet
   errors of $30 million (absolute value) as shown in Table 5.



                Table 5. Preparation Errors in Depot Maintenance Report
                                  on Budget Execution
                                      (in millions)

        Report Line                                                             Amount*

        Part 1
        Budgetary Resources:

        Line 1C. Budget authority/contract authority                               $(3.2)

        Line 6D. Permanently not available/other authority withdrawn* (4.6)

        Part 2
        Status of Budgetary Resources

        Line 8D. Obligations incurred/reimbursable obligations                          11.1

        Part 3
        Relationship of Obligations to Outlays:

        Line 14C. Obligated balance, net/undelivered orders                             11.1
    *
        Negative amounts are overstatements and positive amounts are understatements.




Summary
   Accounting systems used by the Air Force WCF and the USTRANSCOM WCF
   have not fully implemented the USGSGL at the transaction level for budgetary
   accounts. Therefore, instead of using budgetary accounts to prepare the Reports
   on Budget Execution and the Statements, the DFAS Denver Center had to use
   proprietary and statistical accounts and data not recorded in accounting records.
   In addition, accounting entries were made to the Reports on Budget Execution
   that were not posted to the accounting records, and errors were made in
   preparing the Reports on Budget Execution. The Statements and the underlying
   Reports on Budget Execution were unauditable because they were not prepared
   from budgetary accounts. The Statements and the underlying Reports on Budget
   Execution had material internal control deficiencies because of the accounting
   entries and errors, which resulted in the financial statements showing amounts
   different from the amounts on accounting records. Plans exist to upgrade or
   replace the systems to incorporate the USGSGL at the transaction level for



                                               15
    budgetary accounts. Therefore, we are making no recommendation to
    implement the USGSGL in accounting systems at the transaction level for
    budgetary accounts.

Recommendations and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service Denver Center, fully implement the applicable provisions of DoD
    Regulation 7000.14-R, “DoD Financial Management Regulation,”
    volume 6A, “Reporting Policy and Procedures,” February 1996, with
    changes through January 1998, and volume 6B, “Form and Content of DoD
    Audited Financial Statements,” October 1999, by:

           1. Posting all accounting entries to the accounting records.

          2. Correcting errors on the spreadsheet used to prepare the Reports
    on Budget Execution.

           3. Preparing financial statements from accounting records.

    Management Comments. The Director for Accounting, Defense Finance and
    Accounting Service, concurred and stated that new systems to be implemented
    in FY 2000 will comply with the USGSGL and eliminate the need for entries to
    balance reports collections and expenditures and for making prior period
    adjustments.




                                      16
           C. Disbursements and Collections
           The DFAS Denver Center was not able to fully explain differences in
           disbursements and collections recorded in Air Force WCF base-level
           accounting records and those recorded in Department-level records. In
           FY 1999, the net unexplainable monthly differences ranged from
           $142 million to a negative $186 million for individual activity groups.
           The cause of these differences was unknown. As a result, there was no
           assurance that disbursements and collections in Department-level records
           represented proper charges to the Air Force WCF, or whether
           disbursements and collections were properly recorded in base-level
           accounting records.

Posting Procedures
    Disbursements and collections for each business activity group of the Air Force
    WCF or its components are recorded on Department-level accounts and
    base-level accounts. The Department-level accounts show disbursements and
    collections that have been reconciled to amounts recorded on U.S. Treasury
    records. The base-level accounts show disbursements and collections that have
    been accepted and posted to base-level accounting records. Differences between
    Department-level and base-level disbursements and collections are recorded in
    undistributed disbursement and collection accounts. The undistributed
    disbursement and collection accounts should equal the total of disbursement and
    collection transactions in the following categories:

       •   transactions not yet posted to base-level accounts but posted to
           Department-level accounts,

       •   transactions suspended from posting to base-level accounts but already
           posted in Department-level accounts, and

       •   transactions rejected at base-level for which the rejection has not yet
           been posted to Department-level accounts.

Unexplained Differences
    The DFAS Denver Center could not reconcile the total amounts recorded to
    undistributed disbursement and collection accounts to known transactions that
    were not yet posted, suspended, or rejected. Table 6 shows that the total
    monthly cumulative net undistributed disbursement and collection differences
    that were unexplained ranged from $142 million to a negative $186.4 million for
    five of the business activity groups of the Air Force WCF. These amounts
    would be higher if data were available to separately show undistributed
    disbursement and collection differences. We could not determine the gross
    differences because the DFAS Denver Center did not record those differences.




                                        17
      Table 6. Unexplainable Net FY 1999 Monthly Differences Between
    Department-Level and Base-Level Disbursement and Collection Accounts
                               (in millions)1

              Supply             Depot         Information
Month       Management2        Maintenance        Systems      USTRANSCOM3        Component4

October     $(183.8)             $ 17.1        not available    $114.7             $ 10.3

November      (90.7)                9.5        not available       98.3                5.8

December     (105.5)               94.5        not available       61.9              (41.4)

January      (103.0)             110.0         not available        0.1              (30.9)

February      (17.8)               52.6        not available       (0.5)               2.9

March        (145.6)               70.7        not available       89.2                1.1

April        (186.4)               76.9        not available       94.2               (9.0)

May           (21.9)               75.8        not available       96.5              (26.7)

June          (30.2)               77.4             0.5          142.0               (20.7)

July          (10.7)               51.2            10.7            63.0              (22.0)

August        (35.9)               52.6             7.9            54.8              (22.3)

September      51.2                89.9            (0.2)         141.4               (26.3)

1
 Negative amounts indicate that amounts recorded in undistributed disbursement and collection
accounts exceed known amounts not posted to base-level accounts. Positive amounts indicate
that known amounts not posted to base-level accounts exceed amounts in undistributed
disbursement and collection accounts.

2
 The Supply Management activity group includes amounts for the Air Force Laundry and Dry
Cleaning and the San Antonio Real Property Maintenance Activity components, which are part
of the Base Support activity group.

3
For October through May, USTRANSCOM amounts exclude amounts for the Military Traffic
Management Command and the Military Sealift Command.

4
 The Component activity group represents disbursements and collections that are identified as
proper Air Force WCF transactions but cannot be identified with a specific subbusiness activity
group.




                                          18
Management Actions
    The DFAS Denver Center reported this condition as a material management
    control weakness in its FY 1999 Annual Statement of Assurance,
    October 14, 1999. Planned corrective action is scheduled to be completed by
    August 2000.

Summary
    The DFAS Denver Center was not able to explain all differences between
    Department-level disbursement and collection accounts and base-level
    disbursement and collection accounts. Management has recognized this
    condition as a material management control weakness and has initiated planned
    actions. The unexplained differences raise questions regarding whether
    disbursements and collections in Department-level records represent proper
    charges to the Air Force WCF, and whether disbursements and collections are
    properly recorded in base-level accounting records. We are making no
    recommendations because of planned management actions.




                                      19
Appendix A. Audit Process

Scope
    Work Performed. We reviewed support for accounting entries that the DFAS
    Denver Center made to FY 1999 accounting records of the Air Force,
    USTRANSCOM, DSS, and JLSC working capital finds. Accounting entries
    made by the DFAS Denver Center included 716 monthly entries with debits
    totaling $204.2 billion and 332 year-end entries with debits totaling
    $225.2 billion. We reviewed 1,012 of these entries. We did not review
    36 entries with debits totaling $16 billion, because the DFAS Denver Center did
    not make them available for review by our deadline for completing audit
    fieldwork. Not reviewing these 36 entries did not affect the results of our audit.
    We also reviewed these accounting entries to determine whether they were
    properly approved.

    We reviewed procedures used by the DFAS Denver Center to prepare the
    FY 1999 Reports on Budget Execution for the Supply Management, Depot
    Maintenance, and USTRANSCOM activity groups. The Reports on Budget
    Execution present, in expanded form, the information on the Statement of
    Budgetary Resources. Specifically, we ascertained the accounts that were used
    and verified amounts to the accounting records.

    We also reviewed the Air Force WCF cash worksheets used by the DFAS
    Denver Center to monitor monthly differences between the disbursements and
    collections recorded in Department-level accounting records and those recorded
    in base-level accounting records. Specifically, we reviewed the worksheets for
    unexplained differences during FY 1999.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate-level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goal, and performance measures:

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the Revolution in Military Affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and financial systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2)



                                        20
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objective and goal. This
    report pertains to achievement of the following functional area objective and
    goal.

    Financial Management Area. Objective: Strengthen internal controls.
    Goal: Improve compliance with the Federal Managers’ Financial Integrity
    Act. (FM 5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. The Air Force Stock Fund Accounting
    System module of the Departmental On-line Accounting and Reporting System
    is used to prepare trial balance reports for the Supply Management activity
    group. The trial balance reports were incomplete in that they did not provide
    sufficient budgetary accounting to prepare the Reports on Budget Execution, as
    discussed in finding B.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 1999 through March 2000 in accordance with audit standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Denver Center’s management controls over accounting
    entries, financial report preparation, and posting and verification of
    disbursements and collections. Specifically, we reviewed the DFAS Denver
    Center’s management controls over approval of and support for accounting
    entries, preparation of the Reports on Budget Execution, and assuring that all
    disbursements and collections are posted to accounting records. We reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined in DoD Instruction 5010.40. Management


                                       21
    controls at the DFAS Denver Center were not adequate to ensure that all
    accounting entries were adequately supported and properly approved, that the
    USGSGL was implemented at the transaction level for budgetary accounts, that
    the Reports on Budget Execution were accurately prepared, and that
    disbursements and collections recorded in Air Force WCF Department-level
    accounting records were reconciled with those recorded in base-level records.
    In a previous audit report, we reported the material weakness on accounting
    entries and requested the DFAS Denver Center to correct that weakness.
    Recommendations B.1., B.2., and B.3., if implemented, will result in more
    reliable financial statements. We are making no recommendations to implement
    the USGSGL at the transaction level for budgetary accounts or to reconcile
    disbursements and collections because management has planned corrective
    actions to correct these material management control weaknesses. We will
    provide a copy of the report to the senior official in charge of management
    controls at the DFAS Denver Center.

    Adequacy of Management’s Self-Evaluation. The DFAS Denver Center
    identified controls over the preparation of financial statements as an assessable
    unit, but did not identify controls over accounting entries or the reconciliation of
    disbursements and collections as assessable units. The DFAS Denver Center
    evaluated the preparation of financial statements, controls over accounting
    entries, and the reconciliation of disbursements and collections. In its
    evaluations, the DFAS Denver Center identified the material weakness related to
    the reconciliation of disbursements and collections that were identified by the
    audit and reported this material weakness on the FY 1999 Annual Statement of
    Assurance. In its evaluations, the DFAS Denver Center did not identify
    material weaknesses related to the preparation of financial statements and
    controls over accounting entries identified by this audit. DFAS Denver Center's
    evaluation of financial statements was related to financial statements required by
    the CFO Act, not to other financial reports on which the financial statements are
    based. The DFAS Denver Center did not include a review of actual accounting
    entries. In its Annual Statement of Assurance, DFAS reported the material
    weakness related to not implementing the USGSGL at the transaction level.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                        22
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
     Director, Accounting Policy
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Force Materiel Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
U.S. Transportation Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver Center

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  Accounting and Information Management Division
      Defense Financial Audits, Denver
  National Security and International Affairs Division
      Technical Information Center




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       24
Defense Finance and Accounting Service
 Comments




                      25
26
27
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report.

  F. Jay Lane
  Salvatore D. Guli
  Brian M. Flynn
  Byron B. Harbert
  Stephen J. Szabanowski
  Andrew E. Hornbrook
